                                UNITED STATES
                        NUCLEAR REGULATORY COMMISSION
                                WASHINGTON, D.C. 20555-0001




OFFICE OF THE
INSPECTOR GENERAL




                                  September 19, 2011


MEMORANDUM TO:             R. William Borchardt
                           Executive Director for Operations


FROM:                      Stephen D. Dingbaum /RA/
                           Assistant Inspector General for Audits

SUBJECT:                   MEMORANDUM REPORT: AUDIT OF NRC’S SAPHIRE 8
                           SYSTEM (OIG-11-A-18)

OVERVIEW

The Office of the Inspector General (OIG) conducted an audit of the Nuclear Regulatory
Commission’s (NRC) SAPHIRE 8 System to determine if the system meets its required
operational capabilities and applicable security controls. OIG determined SAPHIRE 8
meets its operational capabilities and there is limited security risk to the software.
However, there are additional measures NRC should take to ensure SAPHIRE is
managed properly. Specifically, OIG identified that formal policies and procedures on
granting and managing access to SAPHIRE are needed. Furthermore, NRC identified
the need for improvements to the SAPHIRE Web site user accounts and passwords.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this report. Actions taken or planned are
subject to OIG followup as stated in Management Directive 6.1.

BACKGROUND

One of the NRC’s key responsibilities is to help ensure that the operation of nuclear
power plants and other NRC-licensed facilities presents no undue risk to public health
and safety. The agency does this by applying and enforcing a set of technical
requirements on plant design and operations. Since the 1970s, NRC has used
                                                                                    Audit of NRC’s SAPHIRE 8 System


probabilistic risk assessment (PRA) as a tool for assessing, in a realistic manner, the
strengths and weaknesses of nuclear plant design and operation. PRA is a technical
analysis that systematically answers three questions: (1) What can go wrong? (2) How
likely is it to happen? and (3) What are the consequences?

SAPHIRE Software Tool
NRC developed the Systems Analysis Programs for Hands-on Integrated Reliability
Evaluations, or SAPHIRE, to aid in conducting these PRA evaluations. SAPHIRE is a
software tool that performs the highly complex mathematics behind PRA. To use
SAPHIRE, a user must first download a copy of the software to his or her personal
computer.1 The user must then input a detailed description of the systems, structures,
and components (i.e., the model) to be analyzed in SAPHIRE. At NRC, these models,
called Standardized Plant Analysis Risk (SPAR) models,2 represent the as-built, as-
operated nuclear plant. Once the SPAR model has been input, users can then enter
different combinations of human and/or equipment failures and the nuclear plant’s
operating status (e.g., full power, low power, and shut down) to quantify the likelihood of
an undesired end state, such as core damage. This allows NRC to model a nuclear
power plant’s response to accidents or potential events.

Other Federal agencies, some foreign government agencies, and members of the
general public may also use SAPHIRE to conduct PRA evaluations on other complex
systems, facilities, or processes outside the nuclear industry.

The initial version of SAPHIRE3 was released in February 1987. The most current
version of SAPHIRE, Version 8 (SAPHIRE 8), was released in April 2010. This version
included more “user-friendly” features and new modeling and calculation methods, with
the ability to handle larger and more complex PRA models than previous versions.

In addition to the downloadable SAPHIRE software tool, there is a secure SAPHIRE
Web site (see figure, page 3). Access to the secure SAPHIRE Web site is restricted to
approved users who are given unique personal identifications and passwords. Once
users log into the Web site, they can access and download the most current version of


1
 Once the SAPHIRE software is downloaded to a user’s personal computer, this software will reside on the user’s
machine permanently, unless deleted by the user.
2
  SPAR models are plant-specific PRA models that illustrate accident sequence progression, plant systems and
components, and plant operator actions. The standardized models represent the as-built, as-operated plant. NRC
staff use these SPAR models to independently assess the risk of events or degraded conditions at operating nuclear
power plants.
3
  Initial versions of the PRA software tool were called the Integrated Risk and Reliability Analysis System. In 1997,
the software name was changed to SAPHIRE.




                                                           2
                                                                              Audit of NRC’s SAPHIRE 8 System


the SAPHIRE software.4 The Web site also allows users access to SAPHIRE guidance
documentation and to submit questions or report any problems related to the software.
A restricted section of the Web site allows only NRC users to access and download the
most current version of the SPAR models.

Home Page of SAPHIRE Web site




Source: https://saphire.inl.gov/

SAPHIRE Users and Access
Access to the tool and Web site vary based on organization and user needs. The Office
of Nuclear Regulatory Research (RES), the system owner of SAPHIRE, is responsible
for granting user access to the software. Potential users must contact a specific
individual in RES who handles all SAPHIRE access requests. For NRC employees, an
e-mail request can be made directly to this individual, who then evaluates and
determines the need for user access. If access is approved, NRC users are allowed
access to the most current version of the software and full access to the Web site,
including the SPAR models. While RES, the Office of Nuclear Reactor Regulation, and
the Office of New Reactors all use SAPHIRE, the predominant users within NRC are the
Senior Reactor Analysts located within each of NRC’s four regional offices. The main
Senior Reactor Analyst job function is to conduct PRA evaluations for issues and events
related to the nuclear power plants in his or her region.
4
 Personal identifications and passwords are required only to access the SAPHIRE Web site. Once users have
downloaded the SAPHIRE tool to their personal computers, the software can be used without a password. This also
applies to SPAR models for NRC users.


                                                       3
                                                                                  Audit of NRC’s SAPHIRE 8 System


While NRC users have unrestricted access to SAPHIRE 8 and the Web site, there are
restricted access rights for non-NRC users. The ability to download SAPHIRE 8 is
limited to NRC licensees, U.S. Government employees, their approved contractors, and
some foreign government agencies.5 Prior to access being granted, non-NRC entities
typically6 sign a non-disclosure agreement stating that users will not release the code to
any third party without prior written consent from NRC. Once NRC reviews and
approves these agreements, the entity’s employees can then individually contact RES
to request and download the SAPHIRE software. While non-NRC users who are
granted access to the SAPHIRE Web site can access the SAPHIRE tool, they do not
have access to the SPAR models.

Idaho National Laboratory (INL), the contractor7 that developed SAPHIRE in conjunction
with RES, also plays an important role in granting user access. While NRC is
responsible for making determinations on who can have SAPHIRE, INL staff are
responsible for providing the access to allow users to download the software.
Additionally, INL generates SAPHIRE Web site user accounts for most users.8

Program Support Resources
INL interfaces with and supports SAPHIRE users. INL provides training courses to
NRC staff and help desk support for NRC users. INL also provides support to the non-
NRC user group. Furthermore, INL works closely with RES to resolve any outstanding
issues, such as software bugs, user access, and overall continuous improvement of the
system.




5
 Access to SAPHIRE 8 by some foreign government agencies is allowed. However, RES reviews these requests on
a case-by-case basis.
6
  The only entity outside of NRC that is not required to sign a non-disclosure agreement is the National Aeronautics
and Space Administration (NASA), the largest non-NRC user of SAPHIRE 8. In 2009, NRC signed a memorandum
of understanding with NASA that established a collaborative agreement between the two agencies to share relevant
technical information, reliability data, and software technology. With this agreement in place, NASA users are
allowed access to SAPHIRE 8; therefore, signing a non-disclosure agreement prior to receiving access to SAPHIRE
is not required.
7
  The Energy Reorganization Act of 1974 authorized the NRC to use the Department of Energy’s (DOE) research
facilities and services to assist NRC in conducting its mission. In 1978, NRC and DOE executed an MOU that
established the policy governing the relationship between NRC and DOE for NRC-funded research at DOE
laboratories. There are currently 17 DOE laboratories nationwide and all are managed and operated by non-
Government entities under contract with DOE, including INL. In this report, “contract” refers to the agreement
between NRC and the “contractor,” DOE laboratory, INL.
8
 Based on the memorandum of understanding between NRC and NASA, NRC has delegated the responsibility for
creating NASA user accounts to one NASA staff member. This person makes determinations concerning NASA
employees’ needs for access to SAPHIRE and the SAPHIRE Web site.




                                                          4
                                                                             Audit of NRC’s SAPHIRE 8 System


There are four ongoing SAPHIRE-related contracts, which have a total value of nearly
$5 million. These contracts cover the time period of 2007 through 2013 and are
specifically related to:
           1. Coordination and integration of SPAR models.
           2. Development of SAPHIRE 8.
           3. Evaluating methods to improve SAPHIRE 8 speed and performance.
           4. Maintenance and quality assurance activities related to SAPHIRE 8 code.

OBJECTIVE

The audit objective was to determine if the system meets its required operational
capabilities and applicable security controls.

RESULTS

SAPHIRE 8 meets its operational capabilities and there is limited security risk to the
software.9 However, there are additional measures NRC should take to ensure
SAPHIRE is managed properly. Specifically, OIG identified that formal policies and
procedures on granting and managing access to SAPHIRE are needed. Furthermore,
NRC identified the need for improvements to the SAPHIRE Web site user accounts and
passwords.10

FINDING: FORMAL POLICIES AND PROCEDURES NEEDED

NRC lacks formal policies or procedures for granting and managing access to the
SAPHIRE software. This occurs because agency managers have not prioritized the
need for a formalized approach to managing access to SAPHIRE 8 and its Web site.
As a result, more than half of the SAPHIRE Web site users have not accessed the site
since July 2010. Without knowing the true universe of internal and external SAPHIRE
users, NRC could have difficulty in managing user access.

Federal Guidance for Programs
Federal guidance states that Government programs, including information technology
systems, should have formal guidance outlining proper policies and procedures. The
National Institute of Standards and Technology (NIST) provides the Federal
Government with guidance on security controls over information systems. A major
component of system security is access controls. Access controls include (1) the

9
 SAPHIRE is listed by NRC’s Office of Information Services as approved desktop software. SAPHIRE does not
connect to any other NRC system and contains no sensitive information.
10
  The SAPHIRE Web site allows users to download the most current version of SAPHIRE. Additionally, NRC users
can use the Web site to download the current SPAR models.


                                                      5
                                                            Audit of NRC’s SAPHIRE 8 System


process of requesting, establishing, issuing, and closing user accounts; (2) tracking
users and their respective access authorizations; and (3) managing these functions.
Specifically, NIST Special Publication 800-53A, “Guide for Assessing the Security
Controls in Federal Information Systems and Organizations,” states that when
implementing an information technology system, there should be formally documented
access control policies and a defined frequency for when these policies are reviewed
and updated.

Informal User Access Policies and Procedures
NRC lacks formal policies or procedures for granting and managing access to the
SAPHIRE software.

Granting User Access
When SAPHIRE 8 was initially developed, NRC staff discussed and determined who
should be allowed access to the software. In November 2010, an e-mail documenting
these decisions was circulated to the main NRC staff involved with managing and
granting access to SAPHIRE. However, these decisions were never formally
documented in official SAPHIRE policies, either for NRC or INL staff. The main INL
contract staff person involved with granting user access was aware of the user access
policy details, but could not locate any guidance materials describing this policy.

Reviewing User Access
There are no formal procedures to review user access to the SAPHIRE Web site on a
regular basis. SAPHIRE Web site account holders have access to the Web site until
they are removed from the approved user list. An NRC employee involved with
SAPHIRE stated that he annually reviews the user list to determine if anyone no longer
needs access due to separation from NRC or changed job responsibilities. If any
accounts are identified as unneeded, the NRC employee will contact INL to have these
accounts deleted. When this NRC employee took over responsibility for reviewing user
access, his predecessor verbally informed him of this procedure; however, it was not
documented. Furthermore, the NASA staff member responsible for granting all NASA
users access to SAPHIRE 8 does not review the universe of Web site users. He stated
that there are a small number of users and he is able to see who has access, but he
does not perform any checks to determine if users still need access. This NASA
employee said that removing access from those who no longer need access is an area
that needs improvement.

Not Viewed As a Priority
There are no formal policies and procedures because agency managers have not
prioritized the need for a formalized approach to managing access to SAPHIRE 8 and
its Web site.


                                           6
                                                                                  Audit of NRC’s SAPHIRE 8 System


Granting User Access
A senior NRC manager stated that formally documenting policies and procedures on
who is allowed access to SAPHIRE 8 and the Web site has not been viewed as a
priority since there are a small number of people involved with managing SAPHIRE.

Reviewing User Access
NRC managers have not taken a formal approach to reviewing needed user access
because they have not perceived this as necessary. The NRC staff member involved
with reviewing access stated that the number of users who have access to SAPHIRE is
small; therefore, he is familiar with who no longer needs access. While INL is able to
produce SAPHIRE user logs showing the last time approved users accessed the Web
site, NRC has not requested these logs to help determine who still needs access during
its annual review of user accounts.

Furthermore, NRC staff stated that maintaining a user account after it was no longer
needed would not result in potential access to sensitive information. In a December
2007 report, “Sensitive Unclassified Non-Safeguards Information (SUNSI) Assessment
of SAPHIRE and SPAR Models,” NRC reviewed the sensitivity of the software and the
related models, which composes the information available on the SAPHIRE Web site.
This report concluded that unauthorized access to SAPHIRE or SPAR models does not
pose a threat to any sensitive information.

Too Many Users Have Access
Because the agency lacks a formal approach to updating SAPHIRE Web site access
lists, more than half of the approved users have not accessed the Web site since July
2010. Many said while they once had a need for SAPHIRE, this is no longer the case.
Without knowing the true universe of users, it is difficult for NRC to manage user
access.

OIG performed an analysis to determine the total number of users and their level of
involvement with the SAPHIRE Web site. INL provided reports that detailed the total
users broken down by organization, and the total number of Web site log-ins per user
from August 2010 through June 2011. Using this information, OIG determined that
more than 50 percent of the total user population had not logged into the SAPHIRE
Web site since July 2010 or earlier. The following table provides a breakdown of the
main user groups and the percentage of inactive accounts.11




11
     Inactive accounts are SAPHIRE Web site accounts with no log-ins occurring since at least August 2010.


                                                           7
                                                              Audit of NRC’s SAPHIRE 8 System


             Inactive SAPHIRE Accounts as of June 2011
                      Number of         Inactive        Percentage of
                      User              Accounts        Accounts
                      Accounts                          Inactive

             NRC      194               102             53%

             NASA     71                55              77%

             INL      37                16              43%

             Other    11                5               45%

             Total    313               178             57%
             Source: OIG analysis of Web site usage data.

OIG interviewed a judgmental (non-statistical) sample of approximately 20 percent of
the inactive NRC user account holders. Of these 21 inactive users, 13 stated that they
would no longer need access to the SAPHIRE Web site. Seven of the thirteen stated
that they had not accessed the SAPHIRE Web site in several years. One inactive user
claimed that he had not accessed the SAPHIRE Web site in approximately 10 years.
However, some of the inactive user account holders expect to need access in the
future. For example, one account holder remarked that while he has not used
SAPHIRE to this point, using the software will soon become part of his job
responsibilities.

Without knowing the true universe of users, it is difficult for NRC to manage access to
the program consistent with NIST guidance on access controls. Although OIG did not
discover any instances of inappropriate access being granted to the software tool, many
users have maintained Web site access after it was no longer needed. Documented
policies and procedures for managing user access could significantly increase the
security controls over the system. Furthermore, formal written documentation on
granting and managing access to SAPHIRE 8 would assist any new staff who become
involved with SAPHIRE management.




                                             8
                                                              Audit of NRC’s SAPHIRE 8 System


Recommendations

OIG recommends that the Executive Director for Operations:

          1. Formalize a policy on granting access to SAPHIRE 8.

          2. Develop and implement SAPHIRE Web site procedures to:

                    Check and verify continued need for user access.
                    Deactivate unnecessary user accounts.

          3. Develop and implement an automated system to deactivate SAPHIRE
             Web site user accounts that have not been used in a defined time period
             (e.g., 6 months).


OBSERVATION: IMPROVED USER ACCOUNT SECURITY NEEDED

At the initiation of this audit, NRC identified the need for improvements to the SAPHIRE
Web site user accounts and passwords. Currently, all SAPHIRE Web site user
accounts are created by two individuals:

          1. An INL contractor, who creates the majority of user accounts/all non-
             NASA accounts.

          2. A NASA employee, who creates only the NASA employee and NASA
             contractor accounts.

When the user account is created, the individual who generated the account determines
a password to be assigned to this account. This password never expires and is never
required to be changed. While both the INL contractor and the NASA employee stated
that the user account passwords they have created recently are complex in nature,
some of the older accounts may not meet any complexity standards.

NRC is currently working to improve the process for generating user accounts and
passwords. Specifically, a modification to the SAPHIRE contract that focuses on
improving SAPHIRE Web site security was developed in July 2011. Currently, RES is
working through the administrative process to formally include this modification as a
contract requirement. This modification requires INL to develop and implement a plan
to improve the security controls applied to SAPHIRE Web site user accounts. The plan,



                                           9
                                                             Audit of NRC’s SAPHIRE 8 System


which will require NRC approval before implementation, will likely include changes to
the user accounts to have passwords that:

      Are generated by the individual users.
      Have expiration dates.
      Meet certain complexity standards.

OIG contends that this contract modification will improve the security of the SAPHIRE
Web site and advises that NRC continue to pursue these improvements to SAPHIRE
Web site user accounts and passwords.

AGENCY COMMENTS

An exit conference was held with the agency on September 13, 2011. At this meeting,
agency management provided supplemental information that has been incorporated into
this report as appropriate. As a result, agency management stated their general
agreement with the findings and recommendations in this report and opted not to
provide formal comments for inclusion in this report.

SCOPE AND METHODOLOGY

OIG audited SAPHIRE 8 to determine if it meets its required operational capabilities and
applicable security controls. The audit team reviewed relevant criteria, including NIST
Special Publication 800-53A, “Guide for Assessing the Security Controls in Federal
Information Systems and Organizations”; FIPS Publication 200, “Minimum Security
Requirements for Federal Information and Information Systems”; NUREG 1925
“Research Activities FY 2010 – FY 2011”; “Sensitive Unclassified Non-Safeguards
Information (SUNSI) Assessment of SAPHIRE and SPAR Models”; and the Government
Accountability Office’s “Standards for Internal Control in the Federal Government.” OIG
auditors also reviewed previous NRC OIG audit reports including, “Evaluation of NRC’s
Use of Probabilistic Risk Assessment (PRA) in Regulating the Commercial Nuclear
Power Industry” (OIG-06-A-24).

At NRC headquarters, in Rockville, MD, auditors interviewed RES, Office of Nuclear
Reactor Regulation, and Office of New Reactors staff and management to gain an
understanding of their roles and responsibilities related to SAPHIRE 8. Auditors
conducted telephone interviews with NRC regional staff and management, as well as
staff from INL and NASA. Additionally, OIG attended 1 day of a 3-day PRA training
class conducted by INL at NRC’s Professional Development Center in Bethesda, MD.




                                           10
                                                              Audit of NRC’s SAPHIRE 8 System


We conducted this performance audit at NRC headquarters from May 2011 to July 2011
in accordance with generally accepted Government auditing standards. Those
standards require that the audit is planned and performed with the objective of obtaining
sufficient, appropriate evidence to provide a reasonable basis for any findings and
conclusions based on the stated audit objective. OIG believes that the evidence
obtained provides a reasonable basis for the report findings and conclusions based on
the audit objective. Internal controls related to the audit objective were reviewed and
analyzed. Throughout the audit, auditors were aware of the possibility or existence of
fraud, waste, or misuse in the program. The work was conducted by Beth Serepca,
Team Leader; Rebecca Underhill, Audit Manager; Yvette Mabry, Senior Auditor; and
Michael Blair, Management Analyst.

CC:    N. Mamish, OEDO
       J. Arildsen, OEDO
       K. Brock, OEDO
       C. Jaegers, OEDO




                                           11
Electronic Distribution

Edwin M. Hackett, Executive Director, Advisory Committee
  on Reactor Safeguards
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety
  and Licensing Board Panel
Stephen G. Burns, General Counsel
Brooke D. Poole, Director, Office of Commission Appellate Adjudication
James E. Dyer, Chief Financial Officer
Margaret M. Doane, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
R. William Borchardt, Executive Director for Operations
Michael F. Weber, Deputy Executive Director for Materials, Waste,
  Research, State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director
  for Corporate Management, OEDO
Martin J. Virgilio, Deputy Executive Director for Reactor
  and Preparedness Programs, OEDO
Nader Mamish, Assistant for Operations, OEDO
Kathryn O. Greene, Director, Office of Administration
Patrick D. Howard, Director, Computer Security Office
Roy P. Zimmerman, Director, Office of Enforcement
Cynthia Carpenter, Acting Director, Office of Federal and State Materials
  and Environmental Management Programs
Cheryl L. McCrary, Director, Office of Investigations
Thomas M. Boyce, Director, Office of Information Services
Miriam L. Cohen, Director, Office of Human Resources
Michael R. Johnson, Director, Office of New Reactors
Catherine Haney, Director, Office of Nuclear Material Safety
  and Safeguards
Eric J. Leeds, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
James T. Wiggins, Director, Office of Nuclear Security
  and Incident Response
William M. Dean, Regional Administrator, Region I
Victor M. McCree, Regional Administrator, Region II
Mark A. Satorius, Regional Administrator, Region III
Elmo E. Collins, Jr., Regional Administrator, Region IV
